                                Department of the Interior
                                Office of Inspector General



                 AUDIT REPORT




                U.S. Fish and Wildlife Service
        Wildlife and Sport Fish Restoration Program
          Grants Awarded to the State of Florida
        Fish and Wildlife Conservation Commission
         From July 1, 2005, Through June 30, 2007




Report No. R-GR-FWS-0002-2008                   June 2008
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                             12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191

                                                                                     June 5, 2008

                                      AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Regional Manager, Eastern Region

Subject:   Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration Program
           Grants Awarded to the State of Florida Fish and Wildlife Conservation Commission
           From July 1, 2005, Through June 30, 2007 (No. R-GR-FWS-0002-2008)

        This report presents the results of our audit of costs incurred by the State of Florida
(State) Fish and Wildlife Conservation Commission (Commission) under grants awarded by the
U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife
and Sport Fish Restoration Program (the Program). The audit included claims totaling
approximately $67.1 million on 49 grants that were open during State fiscal years (SFYs) ended
June 30 of 2006 and 2007 (see Appendix 1). The audit also covered the Commission’s
compliance with applicable laws, regulations, and FWS guidelines, including those related to the
collection and use of hunting and fishing license revenues and the reporting of program income.

       We found that the Commission complied with applicable grant accounting and regulatory
requirements. We did not identify any reportable conditions. We therefore do not require a
response to this audit report.

      If you have any questions regarding this report, please contact the audit team leader,
Lawrence Kopas, or me at 703–487–5345.

cc:   Regional Director, Region 4, U.S. Fish and Wildlife Service
                                               Introduction
Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Commission:

      •    claimed the costs incurred under the Program grants in accordance with the Acts and
           related regulations, FWS guidelines, and the grant agreements;

      •    used State hunting and fishing license revenues solely for fish and wildlife program
           activities; and

      •    reported and used program income in accordance with federal regulations.

Scope
Audit work included claims totaling approximately $67.1 million on the 49 grants that were open
during SFYs ended June 30 of 2006 and 2007 (see Appendix 1). We performed our audit at
Commission headquarters in Tallahassee, FL, and visited three regional offices, three wildlife
management areas, two fisheries field offices, two laboratories, the Fish and Wildlife Research
Institute, and the Florida Bass Conservation Center (see Appendix 2). We performed this audit
to supplement, not replace, the audits required by the Single Audit Act Amendment of 1996 and
by Office of Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.

                                                          2
conclusions based on our audit objectives. We tested records and conducted auditing procedures
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Commission;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Commission employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Commission used hunting and fishing license revenues solely
       for administration of the Commission; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Commission operations.

Prior Audit Coverage
On February 25, 2004, we issued “Final Audit Report on the State of Florida Fish and Wildlife
Conservation Commission from July 1, 2000, through June 30, 2002” (Report No. R-GR-FWS-
0020-2003). We followed up on all recommendations in the report and found that the
Department of the Interior, Office of the Assistant Secretary for Policy, Management and Budget
considered them to be resolved and implemented.

We reviewed the Single Audit Report of the State of Florida and the Comprehensive Annual
Financial Report for the fiscal year ended June 30, 2006. Neither report contained findings
requiring corrective actions by the Commission.




                                                3
                                  Results of Audit

We found that the Commission complied with applicable grant agreement provisions and
requirements of the Acts, regulations, and FWS guidance. The report contains no reportable
findings and no recommendations, and no further action is necessary.




                                              4
                                                      Appendix 1
                                                        Page 1 of 2

FLORIDA FISH AND WILDLIFE CONSERVATION COMMISSION
     FINANCIAL SUMMARY OF REVIEW COVERAGE
           JULY 1, 2005 THROUGH JUNE 30, 2007

   Grant Number    Grant Amount       Claimed Costs
       F-1-55            $60,000           $41,469
       F-1-56            357,897           365,183
       F-42-20           534,247           508,833
       F-42-21           667,580           617,270
       F-43-20         1,502,010         1,505,211
       F-43-21         1,548,455         1,548,455
       F-43-22         1,611,669           386,818
       F-49-20           210,000           216,825
       F-49-21           267,007           273,679
       F-51-20           140,000           159,454
       F-51-21           173,646           192,145
       F-59-18         1,030,759           996,650
       F-59-19         1,192,934         1,188,923
       F-66-16           428,968           420,164
       F-66-17           428,968           402,122
       F-69-13           453,333           437,673
       F-69-14           453,333           441,366
       F-69-15           453,333            74,375
       F-70-13           450,000           391,265
       F-70-14           434,549           566,267
       F-72-10           560,000           453,773
       F-72-11           560,000           556,691
       F-73-10           578,484           576,111
       F-73-9            607,327           578,663
       F-75-8            400,000           388,310
       F-75-9            466,667           456,664




                           5
                                                      Appendix 1
                                                        Page 2 of 2

FLORIDA FISH AND WILDLIFE CONSERVATION COMMISSION
     FINANCIAL SUMMARY OF REVIEW COVERAGE
           JULY 1, 2005 THROUGH JUNE 30, 2007

   Grant Number    Grant Amount       Claimed Costs
       F-102-7           190,000           188,096
       F-102-8           230,000           199,228
       F-106-3           133,316           135,299
       F-108-1        10,934,667        10,995,704
       F-109-3           730,000           728,030
       F-109-4           765,060           245,502
       F-110-1         1,200,000           524,876
       F-123-1         1,072,984         1,091,978
       F-123-2           708,068           402,048
       F-124-1         2,468,613         2,357,466
       F-125-R-1       1,295,619         1,373,914
       F-126-D-1         665,000                 0
       F-127-R-1         154,696            38,338
       W-5-14          1,469,230         1,533,313
       W-5-15          1,300,141         1,691,870
       W-6-9             320,000           351,333
       W-6-10            320,000           240,000
       W-13-59             4,000             3,862
       W-13-60             4,000             6,443
       W-35-55         3,719,423        14,785,618
       W-35-56         4,123,133        15,547,185
       W-61-E-1          127,750           128,016
       W-61-E-2           80,000            80,465
       Total         $47,586,866       $66,392,943




                           6
                                                              Appendix 2

FLORIDA FISH AND WILDLIFE CONSERVATION COMMISSION
                   SITES VISITED

     Florida Fish and Wildlife Conservation Commission

                  Headquarters (Tallahassee)

                            Regions

                   North Central (Lake City)
                   South (West Palm Beach)
                    Southwest (Lakeland)


                 Wildlife Management Areas

               Babcock/Webb (Punta Gorda)
           Three Lakes/Prairie Lakes (Kenansville)
               Tosohatchee (Cape Canaveral)


                       Other Locations

       Environmental Services Field Office (Vero Beach)
      Fish and Wildlife Research Institute (St. Petersburg)
          Florida Bass Conservation Center (Webster)
         Kissimmee Fisheries Field Office (Kissimmee)
         Non-Native Fisheries Laboratory (Boca Raton)
             Tequesta Field Laboratory (Tequesta)




                               7
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
